                                                                                        Office of Inspector   General

                                                         8601 Adelphi Road, College Park, Maryland 20740-6001




    April 30, 2007


    Carl A. Clinefelter
    Inspector General
    Farm Credit Administration
    1501 Farm Credit Dr.
    McLean, VA 22102-5090


    Dear Inspector General Clinefe1ter:

    We have reviewed the system of quality control for the audit function ofthe Farm Credit Administration
    (FCA) Office of Inspector General (OIG) in effect for the year ended September 30, 2006. A system of
    quality control encompasses the OIG's organizational structure, and the policies adopted and procedures
    established to provide it with reasonable assurance of conforming with generally accepted government
    auditing standards (GAGAS). The elements of quality control are described in GAGAS, promulgated by
    the Comptroller General of the United States. The design of the system, and compliance with it in all
    material respects, are the responsibility of the FCA OIG. Our objective was to determine whether the
    internal quality control system was adequate as designed and complied with to provide reasonable
    assurance that applicable auditing standards, policies, and procedures were met. Our responsibility is to
    express an opinion on the design ofthe system and the FCA OIG's compliance with the system based on
    our reVIew.

    Our review was conducted in accordance with the guidelines established by the President's Council on
    Integrity and Efficiency and the Executive Council on Integrity and Efficiency. In performing our
    review, we obtained an understanding ofthe system of quality control for the FCA OIG. In addition, we
    tested compliance with the FCA OIG's quality control policies and procedures to the extent we
    considered appropriate. These tests included the application of the FCA OIG's policies and procedures
    on selected audits. Because our review was based on selective tests, it would not necessarily disclose all
    weaknesses in the system of quality control or all instances of lack of compliance with it. Nevertheless,
    we believe that the procedures we performed provide a reasonable basis for our opinion.

    In our opinion, the system of quality control for the audit function ofthe FCA OIG in effect for the year
    ended September 30,2006, has been designed to meet the requirements of the quality control standards
    established by the Comptroller General ofthe United States for a Federal Government audit organization
    and was complied with during the year ended to provide the OIG with reasonable assurance of
    confo~ith         applicable auditing standards, policies, and procedures.



l
            ~ //'1/
            <
                          .I
                               .I

    Paul Brachfeld, Inspe'ctor General
    National Archives and Records Administration




                                     National Archives and Records Administration
